      OFFICE OF THE INSPECTOR GENERAL
      UNITED STATES POSTAL SERVICE




June 7, 2007

KATHLEEN AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:       Audit Report – Deployment Strategy of Automated Postal Centers (Report
               Number DR-AR-07-010)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Deployment Strategy of Automated Postal Centers (APCs) (Project Number
05YG043DR000). Our objective was to assess the deployment strategy of APC kiosks.
Specifically, in this review, we determined whether Postal Service officials were
adequately redeploying underperforming APC kiosks deployed during Phase I. We also
determined whether Postal Service officials were properly planning for placement of
additional APC kiosks during Phase II deployment.

The Postal Service deployment strategy for APC kiosks during Phase I was adequate.
Postal Service officials initially deployed APC kiosks to facilities based on their initial
criteria which included analysis of walk-in revenue related to the self-service platform
products and facility data. Officials compared APC kiosks’ performance with the
number of “APC eligible” transactions. In addition, as of December 2006, officials had
identified and appropriately redeployed 170 underperforming APC kiosks. However,
approximately 54 percent of APC kiosks did not meet the minimum revenue
requirements in fiscal year (FY) 2006. Further, approximately 55 percent of APC kiosks
did not meet the minimum revenue requirements as of the first quarter of FY 2007.

Although Postal Service Headquarters officials stated they have discussed with area
officials the need to redirect noncomplex transactions from the retail counter to APC
kiosks, they have not developed or communicated to area officials specific plans for
how to do this. In addition, officials have not finalized the specific operational
procedures for daily operations in the APC instructional documents since Phase I
deployment in November 2004.
The Postal Service has an opportunity to improve plans for future deployment of Phase
II APC kiosks. The draft Decision Analysis Report (DAR) provides four retail strategies
that include moving simple transactions out of post offices and developing new retail
services that create customer value and revenue. Although officials provided these
strategies in the draft DAR, they have not specifically communicated how to achieve the
Transformation Plan’s goal of doubling to 40 the percentage of retail transactions
conducted via alternate access channels by 2010. In addition, the U.S. Postal Service
Office of Inspector General’s (OIG) analysis of FY 2006 actual transaction data for the
best 3,000 Phase II candidate facilities indicates only about 50 to 100 of these facilities
have sufficient APC eligible transactions to potentially produce a cost savings. The
draft DAR used Phase I transaction data to calculate labor savings and not actual
transaction data from the Phase II candidate facilities. As a result, the Postal Service’s
implementation of the Phase II purchase of 3,000 APC kiosks could result in a $115
million loss over the next 7 years, instead of the positive $243 million the draft DAR
projected.

We recommended the Vice President, Delivery and Retail, revise, finalize, and distribute
the APC instructional documents to area officials and include information on procedures
similar to those found in Handbook PO-102, Self Service Vending Operational and
Marketing Program. We also recommended management reevaluate the draft DAR to
include strategies for achieving the Transformation Plan’s goal of doubling to 40 the
percentage of retail transactions conducted via alternate access channels by 2010. We
also recommended revising the draft DAR assumptions using analysis results of actual
APC eligible transactions from the proposed 3,000 Phase II candidate facilities to
calculate the minimum workhour reductions for labor savings.

Management provided written comments based on our discussion draft report and in
subsequent discussions with OIG, agreeing with our findings and recommendations.
Management stated they distributed the APC instructional documents for comment in
February 2007, provided them to the union for review in April 2007, and will issue the
final documents in June 2007. For Phase II APC deployment, management stated that
if the decision is made to proceed, they plan to revise the draft DAR to include actual
APC eligible transaction data to calculate the workhour savings and the strategies for
meeting the Transformation Plan’s goals for alternate access. We have included
management’s comments and our evaluation of these comments in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Janet L. Webster
    Debra A. Chin
    Michael C. Adams
    Richard W. Rudez
    Frederick J. Hintenach
    Katherine S. Banks
Deployment Strategy of                                                                              DR-AR-07-010
 Automated Postal Centers

                                           INTRODUCTION

    Background                   Automated Postal Centers (APCs), shown in Figure 1, were
                                 designed to offer customers a wide range of Postal Service
                                 products, services, and information through state-of-the-art
                                 technology. The APC kiosks provide customers access to
                                 approximately 80 percent of Postal Service products and
                                 services available at the retail counter, up to 24 hours, 7 days
                                 a week.

                                                 Figure 1. Automated Postal Center with ‘sidecar’




                                                   Source: Postal Service Headquarters Officials

                                 The APC program supports the U.S. Postal Service’s
                                 Transformation Strategy to Generate Revenue through
                                 Enhanced Access and Ease of Use. The program’s long-
                                 range goals include reducing operating costs, expanding
                                 customer satisfaction, improving access to products and
                                 services, and increasing revenue through alternate access.

                                 Postal Service officials deployed 2,500 APC kiosks from April
                                 through November 2004 to Postal Service facilities
                                 nationwide. Officials deployed APC kiosks to facilities based
                                 on initial criteria analysis of walk-in revenue related to the
                                 self-service platform products; wait time in line; population
                                 growth; and facility type, size, and location.1 Xxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




1
 Based on the APC Phase I Decision Analysis Report (DAR), approved by the Board of Governors in April 2003.
Officials previously called the APC the Self-Service Platform.
                                                            1
Deployment Strategy of                                                                             DR-AR-07-010
 Automated Postal Centers

                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxx. 2

                                  The Postal Service Transformation Plan’s goal is to double to
                                  40 the percentage of retail transactions conducted via
                                  alternate access channels by 2010. The APC is one of those
                                  access channels targeted as part of this goal.

                                  Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx3

                                  Postal Service officials plan to purchase and deploy up to
                                  3,000 more APC kiosks in Phase II by the end of FY 2014, by
                                  means of a competitive procurement. At the time of our
                                  review, the Postal Service’s capital budget indicated funding
                                  of $122.1 million for the purchase of APC kiosks in FYs 2007
                                  and 2008.4 The Postal Service will place APC kiosks in
                                  Postal Service facilities nationwide based on the initial criteria
                                  used in Phase I deployment and analysis of APC transaction
                                  data.5 Deployment locations will include APC kiosks in inner
                                  lobbies6 based on the pilot test results of APC kiosks in the
                                  Western Area.7 The Postal Service contracted with
                                  International Business Machines (IBM) to conduct a Strategic
2
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
3
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
4
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxx
5
   The transaction data was retrieved from the Retail Data Mart (RDM) system which can provide a Gain Report that
identifies an office’s potential APC transactions that can be diverted from the retail counter to the APC.
6
  The inner lobby area is opened to postal customers during normal business hours. In many facilities, an outer lobby
area is opened for postal customers to enjoy the convenience and reliability of 24 hour postal access seven days a
week.
7
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                            2
Deployment Strategy of                                                                                DR-AR-07-010
 Automated Postal Centers

                                   Analysis of the APC locations and the results indicated that
                                   six out of the seven facilities reported closing one or more
                                   windows since the APCs were installed in the inner lobby in
                                   the Western Area. Also, revenue in the outer lobbies where
                                   APCs were located has increased since inner lobby APCs
                                   were installed in the Western Area.

    Objective, Scope, and          The objective of our audit was to assess the deployment
    Methodology                    strategy of APC kiosks. Specifically, in this review we
                                   determined whether Postal Service officials were adequately
                                   redeploying underperforming APC kiosks. We also
                                   determined whether officials were properly planning for
                                   placement of additional APC kiosks in the Phase II
                                   deployment.

                                   We interviewed Postal Service Headquarters officials, and
                                   reviewed documentation, applicable policies, and procedures
                                   pertaining to the deployment strategy for APC kiosks. We
                                   also analyzed FYs 2004 through 2005 revenue data from the
                                   RDM system for the 56 APC kiosks redeployed8 to determine
                                   the accuracy of identifying the underperforming APC kiosks
                                   based on the revenue requirements.

                                   We analyzed transaction data from RDM to determine if
                                   transactions were moving away from the retail counter to the
                                   APC. We also analyzed this data to validate that officials
                                   accurately identified the underperforming APC kiosks and
                                   redeployed the 56 APC kiosks to facilities based on
                                   transaction data. Further, we analyzed revenue data from the
                                   Postal Service RDM for FY 2006 through the first quarter of
                                   FY 2007 to determine the number of APC kiosks consistently
                                   not meeting revenue requirements.

                                   We conducted this audit from August 2005 to June 2007 in
                                   accordance with generally accepted government auditing
                                   standards and included such tests of internal controls as we
                                   considered necessary under the circumstances. We relied on
                                   data obtained from postal systems. We did not directly audit
                                   the systems, but performed a limited data integrity review to
                                   support our data reliance. We discussed our observations
                                   and conclusions with management officials and included their
                                   comments where appropriate.

8
 Based on our initial analysis, the Postal Service redeployed 56 APC kiosks. However, since that time, Postal
Service officials have redeployed an additional 170 APC kiosks, bringing the total to 226 APC kiosks redeployed as of
December 2006. We completed our analysis on the redeployment of the 56 underperforming APC kiosks.
                                                           3
Deployment Strategy of                                                        DR-AR-07-010
 Automated Postal Centers



 Prior Audit Coverage       The U.S. Postal Service Office of Inspector General (OIG)
                            issued two reports directly related to our objectives. We have
                            included a complete listing of the reports in Appendix C.




                                            4
Deployment Strategy of                                                                                  DR-AR-07-010
 Automated Postal Centers

                                             AUDIT RESULTS

    Deployment Strategy             The Postal Service’s deployment strategy for APC kiosks in
    of Automated Postal             Phase I was adequate. Postal Service officials initially
    Centers                         deployed APC kiosks to sites based on their initial criteria
                                    analysis of walk in revenue related to the self-service
                                    platform products; wait time in line; population growth; and
                                    facility type, size, and location. Officials compared APC
                                    kiosks’ performance with the number of “APC eligible”
                                    transactions. Additionally, as of December 2006, officials
                                    had identified and appropriately redeployed 170
                                    underperforming APC kiosks. However, many APC kiosks
                                    were not meeting established revenue goals. Further,
                                    opportunities exist to proactively address revenue shortfalls
                                    and properly plan for future deployment of additional APC
                                    kiosks in Phase II.

    Underperforming                 Officials identified and redeployed underperforming APC
    Automated Postal                kiosks as appropriate. During FY 2006, transaction data
    Centers                         indicated only 20 percent of APC eligible transactions were
                                    being converted to APC kiosks. As a result, approximately
                                    54 percent of APC kiosks did not meet the minimum
                                    revenue requirements in FY 2006. Further, approximately
                                    55 percent of APC kiosks continued to underperform as of
                                    the first quarter of FY 2007. (See Appendix A, Tables 1 and
                                    2.)

                                    Postal Service Headquarters officials developed an
                                    instructional training video that provided area officials with
                                    guidance on working in the lobby as an attendant for
                                    dissemination to their respective APC facilities. However,
                                    area officials with APC kiosks stated that (1) after the initial
                                    installation of APC kiosks, no requirement existed for
                                    training new employees assigned APC duties at existing
                                    APC facilities and (2) there was no policy for backup
                                    employees for APC kiosks.9 Also, the Postal Service
                                    contracted with IBM to conduct a strategic analysis at APC
                                    facilities; 75 percent of the respondents interviewed did not
                                    know their APC revenue goal and 25 percent indicated they
                                    received no direction on the APC from their supervisor. 10
                                    IBM made recommendations that included refreshing the

9
 Source — OIG Fiscal Year 2006 Financial Installation Audit results.
10
  IBM officials were able to successfully contact 189 locations via telephone and visit 26 sites. IBM conducted 108
phone interviews with service employees and 228 interviews with supervisors, postmasters, managers, or retail
supervisors. One-half of the 26 site visits interviews were with service employees and the other half with supervisors.
                                                            5
Deployment Strategy of                                                                               DR-AR-07-010
 Automated Postal Centers

                                   training program, updating the training manual, promoting
                                   usage of the APC website to facilitate revenue
                                   communication, and requiring frequent use of lobby
                                   greeters.

                                   Although Postal Service Headquarters officials stated they
                                   have discussed the need to redirect noncomplex
                                   transactions from the retail counter to APC kiosks with area
                                   officials, they have not developed or communicated to area
                                   officials how to do so. Further, officials have not finalized
                                   the procedures for APC daily operations. The operational
                                   procedures in the draft APC instructional documents
                                   included the APC Relocations Procedures Handbook and
                                   APC Handbook PO-103, Automated Postal Center Host
                                   Standard Operating Procedures for Management and
                                   Automated Postal Center Host Standard Operating
                                   Procedures for Employees.

                                   Our analysis of the draft APC instructional documents
                                   indicated they do not provide clear guidelines for APC kiosk
                                   redeployment similar to Handbook PO-102, Postal Service
                                   Vending Operational and Marketing Program for vending
                                   machines.11 Specifically, the guidelines did not contain (1)
                                   notification procedures and information on required efforts
                                   to improve APC kiosks’ performance before redeployment
                                   that may include best practice information from successful
                                   postal locations12 and (2) clear instructions for how to
                                   evaluate specific report metrics and how often to retrieve
                                   management information reports to make decisions.13

                                   We discussed our results with Postal Service Headquarters
                                   officials who agreed with our findings. They stated that the
                                   detail guidelines were not included in the original draft
                                   documents due to management oversight. The officials
                                   stated the original draft documents provided guidance on
                                   redeploying underperforming APC kiosks; however, the
                                   information can be revised with specific procedures.


11
   Section 232 – Revenue Criteria; Section 256 – Redeployment.
12
   We analyzed the Southeast Area, Central Florida District’s procedures to monitor APC performance. Specifically,
the procedures included daily monitoring and communication of the APC performance in meeting the minimum
revenue requirement, making site visits to the underperforming machine locations, and placing attendants in the
lobby on a short-term basis to facilitate customer use of APC kiosks.
13
   In the Automated Center Host Management Standard Operating Procedures document, Tracking and
Communication of Unit Performance, there are no clear guidelines on all the baseline metrics that need to be
established and how to establish them.
                                                           6
Deployment Strategy of                                                                               DR-AR-07-010
 Automated Postal Centers



 Recommendation                    We recommended the Vice President, Delivery and Retail:

                                   1.     Revise, finalize, and distribute the Automated Postal
                                          Center instructional documents for implementation by
                                          area officials (APC Relocation Procedures Handbook,
                                          Handbook PO-103, Automated Postal Center Host
                                          Standard Operating Procedures for Management and
                                          the Automated Postal Center Host Standard Operating
                                          Procedures for Employees) with information to include
                                          procedures similar to Handbook PO-102, Self Service
                                          Vending and Operational Marketing Program. At a
                                          minimum, the procedures should include (1)
                                          notification procedures and information on required
                                          efforts to improve the APC kiosks’ performance before
                                          redeployment that may include best practice
                                          information from successful Postal Service facilities
                                          and (2) clear instructions for how to evaluate specific
                                          report metrics and how often to retrieve management
                                          information reports to make decisions.

 Management’s                      Management agreed with the recommendation. They stated
 Comments                          the APC instructional documents were distributed for
                                   comment in February 2007 and provided to the union for
                                   review in April 2007. The final documents will be issued in
                                   June 2007. Management’s comments, in their entirety, are
                                   included in Appendix D.

 Evaluation of                     Management’s comments are responsive to the
 Management’s                      recommendation. Management’s actions taken or planned
 Comments                          should correct the issue identified in the finding.

 Phase II Deployment               The Postal Service has an opportunity to improve plans for
 of Automated Postal               future deployment14 of Phase II APC kiosks. The OIG
 Centers                           analyzed the draft APC Phase II DAR and retail transaction
                                   data. The proposed DAR outlines expected labor savings of
                                   $135.5 million. These savings were based on a reduction in
                                   sales and service associate workhours expected as
                                   transactions migrate from the retail counter to APC kiosks.
                                   The labor savings were expected during FY 2009.

                                   The DAR provided four retail strategies: move simple

14
  As indicated in footnote 4, Postal Service officials delayed the Phase II DAR. Our review and analysis was based
on the draft Phase II DAR, which Postal officials plan to revise prior to seeking approval for Phase II deployment.
                                                            7
Deployment Strategy of                                                          DR-AR-07-010
 Automated Postal Centers

                            transactions out of the post offices, create a new low-cost
                            retail alternative, optimize the retail network, and develop
                            new retail services that create customer value and revenue.
                            Although officials provided these strategies in the DAR, they
                            did not specify how to achieve the Transformation Plan’s
                            goal of doubling to 40 the percentage of retail transactions
                            conducted via alternate access channels by 2010. The
                            APC is an alternate access channel offering customers a
                            range of Postal Service products and services 365 days a
                            year. However, as stated earlier in our report, the field units
                            need more information on how to promote the use of APCs
                            to increase the percent of revenue conversion.

                            Our analysis of the actual transaction data for FY 2006 at
                            the best 3,000 Phase II candidate facilities indicated only
                            about 50 to 100 of them have sufficient APC eligible
                            transactions to potentially produce a cost savings. Further,
                            our analysis of the draft Phase II APC DAR indicated the
                            document did not use actual transaction data from these
                            locations to project labor cost savings. Instead, the draft
                            DAR used savings from the Phase I candidate facilities.
                            Our analysis of the transaction data for these 3,000 facilities
                            identified approximately 26 average weekly hours of APC
                            eligible transactions from the retail counter. By contrast, for
                            the Phase I APC kiosk facilities, the average number of
                            weekly hours of APC eligible transactions was
                            approximately 50. Even if the eligible transactions at these
                            3,000 facilities identified for Phase II increased to levels 50
                            percent greater than their current levels, given the
                            assumptions in the OIG model used for analysis, the Phase
                            II project would still not show a positive net present value.
                            As a result, the Postal Service’s implementation of the
                            Phase II purchase of 3,000 APCs could result in a $115
                            million loss over the next 7 years, instead of the positive
                            $243 million the draft DAR projected. (See Appendix B.)

 Recommendations            We recommend the Vice President, Delivery and Retail,
                            revaluate the draft Decision Analysis Report to:

                            2.   Include strategies to achieve the Transformation Plan’s
                                 goal of doubling to 40 the percentage of retail
                                 transactions conducted via alternate access channels
                                 by 2010.



                                             8
Deployment Strategy of                                                        DR-AR-07-010
 Automated Postal Centers

                            3.   Revise the draft Decision Analysis Report assumptions
                                 using analysis results of actual Automated Postal
                                 Center eligible transactions from the proposed 3,000
                                 Phase II candidate locations to calculate the minimum
                                 workhour reductions for labor savings.

 Management’s               Management agreed with the recommendations. They
 Comments                   stated the Phase II APC purchase has been postponed due
                            to budgetary constraints and Phase I APC kiosks not
                            achieving target revenue goals. Management stated they
                            plan to revise the draft DAR if the decision is made to
                            proceed with the Phase II purchase. Management further
                            stated the revised draft DAR will include actual APC eligible
                            transaction data to calculate the workhour savings and
                            strategies to meet the Transformation Plan’s goals for
                            alternate access.

 Evaluation of              Management’s comments are responsive to the
 Management’s               recommendations. Management’s actions taken or planned
 Comments                   should correct the issue identified in the finding.




                                            9
     Automated Deployment Strategy of                                                                                            DR-AR-07-010
      Automated Postal Centers


                                                       APPENDIX A
                                             PERFORMING AND UNDERPERFORMING
                                                   APC KIOSKS BY AREA
                                                                  Table 1. Fiscal Year 2006
                                                          New                                                                   Total
                           Capital               Great    York                                                                  No. of    % of    Average
    Earnings Per Month     Metro     Eastern     Lakes    Metro    Northeast       Pacific   Southeast   Southwest   Western    APCs      Total   Revenue
 $20,014 to 38,783              16         2        26       16            8           35           42          60        51       256              $24,081
 $16,008 to $19,992             33        18        30       27            6           52           55          53        67       341              $17,706
 $12,503 to $15,971             41        39        45       55           38           97           91          44       110       560              $14,214
 Total Performing APCs          90        59       101       98           52          184          188         157       228     1,157      46
 $10,005 to $12,478             37        55        53       20           31           61           64          39        96       456             $11,254
 $8,010 to $9,994               27        53        59       20           27           59           55          30        54       384              $9,039
 $5,000 to $7,999               39        52        89       12           12           75           44          25        46       394              $7,243
 $1,457 to $4,998               10        11        33        7            1           18           13           5         9       107              $4,038
 Total Underperforming        113        171       234       59           71          213          176          99       205     1,341    54%
 APCs

                                                           Table 2. 1st Quarter of Fiscal Year 2007
                                                                                                                                Total
                                                         New                                                                     No.
                         Capital               Great     York                                                                     of      % of    Average
  Earnings Per Month     Metro     Eastern     Lakes     Metro    Northeast    Pacific       Southeast   Southwest   Western    APCs      Total   Revenue
$20,009 to $49,068            50        33         67        64          29         82              98         112       151       686              $25,221
$16,514 to $19,983            33        38         51        40          25         56              72          33        85       433              $18,150
Total Performing APCs         83        71        118      104           54       138              170         145       236     1,119       45
$12,004 to $16,492            55        70         79        33          47       111               98          54       121       668               $14,258
$9,001 to $11,991             32        53         57        12          13         85              50          36        32       370               $10,564
$8,001 to $8,997               9        16         13         1           2         21              12           2        11         87               $8,522
$5,042 to $7,951              16        15         41         2           3         27               9           4        18       135                $6,836
$28 to $4,919                  2         3         15         5           0         14              16           8          3        66               $2,036
$0 to -$913                    1         5          2         2           0          3               4           1          1        19                 -$48
Total Underperforming       115        162        207        55          65       261              189         105       186     1,345     55%
APCs

                                                                  Source: Postal Service Headquarters Officials



                                                                              10
Automated Deployment Strategy of                                                                                   DR-AR-07-010
 Automated Postal Centers


                                                            APPENDIX B

                     OIG CASH FLOW ANALYSIS FOR PHASE II APC FUTURE PURCHASE

Given the model’s assumptions, implementing the Phase II program would result in a $115 million loss for the Postal
Service. Even for a few probably highly unrealistic scenarios which we modeled, the project does not break even (for
the 7-year time horizon).

Project year                                          1             2            3           4          5            6           7
FY                                                   2007         2008         2009        2010        2011        2012        2013


Capital investment                                    ($65,399)   ($56,842)

Operating variances other than labor savings
Training, Personnel                                    ($2,115)      ($716)       ($225)      ($229)      ($232)      ($236)      ($239)
Training, non-personnel                                  ($818)      ($236)        ($41)       ($41)       ($42)       ($42)       ($43)
Equipment Maintenance, non-Postal (Level2)             ($1,755)    ($6,874)     ($7,161)    ($7,380)    ($7,675)    ($7,982)    ($8,309)
Implementation and Life-Cycle Support, personnel       ($3,790)    ($1,675)       ($325)      ($337)      ($351)      ($364)      ($380)
Implementation and Life-Cycle Support, Services       ($17,820)   ($17,080)    ($13,575)   ($13,467)   ($13,411)   ($13,453)   ($13,740)
Implementation and Life-Cycle Support, Equipment       ($7,980)    ($3,075)
Postal Servicing Labor (Level 1)                         ($401)    ($3,207)     ($6,357)    ($7,755)    ($8,001)    ($8,250)    ($8,506)
Total Operating variances other than labor savings    ($34,680)   ($32,864)    ($27,683)   ($29,209)   ($29,713)   ($30,327)   ($31,216)

OIG labor cost savings estimate                        $6,023     $19,802      $31,317     $39,382     $44,464     $46,878     $49,990

Net Cash Flow                                         ($94,056)   ($69,904)     $3,634     $10,173     $14,751     $16,551     $18,774

Discounted net cash flow                              ($94,056)   ($63,694)     $3,017      $7,696     $10,167     $10,394     $10,743

NPV @ 9.75% discount rate                            ($115,732)
ROI (IRR)                                               -19.8%

OIG estimated cumulative machines deployed               1,605         3,000




We used the following assumptions to calculate the $115 million loss.
                                                                  11
Automated Deployment Strategy of                                               DR-AR-07-010
 Automated Postal Centers


 Assumptions and Description of the Labor Cost Savings Model and Discounted
                           Cash Flow Calculation

1.   The base data for the model is the "APC Gain Report - Non-APC POS Locations
     as of 2/7/2007 — POS Visits FY06," provided by Postal Service Headquarters
     Customer Service Operations and contained in file "APC Gain - Non-APC POS
     locs — FY06 Report.xls." The report contains data collected by the Point of
     Service (POS) system for approximately 12,600 sites which do not currently have
     an APC in place. From this group, we were able to identify 4,390 of the 4,484 sites
     originally designated as Phase II candidate sites. We used this group for our
     analysis. From this group, we identified the 3,000 sites with the highest APC
     eligible workloads. The model assumes deployment of the APCs to this group —
     1,605 in the first year of deployment and 1,395 in the second year.

2.   The model assumes labor hour savings can be achieved in one of two ways —
     either permanent reductions in full-time positions or somewhat limited reduction of
     Overtime/Part Time Flexible Hours.

3.   A full-time career position can be eliminated if at least 34 hours of workload can be
     converted to an APC. However, the hours eliminated will be valued at the Postal
     Service’s fully loaded rate only if a full 40 hours of workload can be converted.
     Between 34 and 40 hours of workload converted will result in valuing the
     workhours eliminated at something less than the fully loaded rate.

4.   For a given retail unit, OT/PTF workhours can be reduced one-for-one with each
     hour of workload converted, up to 15 percent of total unit retail workload.

5.   In the first year after deployment of an APC, the estimated percentage of APC
     eligible transactions which will be converted to the APC is 16.61 percent. This
     value was derived from an analysis of the Phase I APC kiosk conversion rate
     somewhat more than 1 year after deployment. As such, we consider it to be likely
     overstated, therefore, conservative.

6.   The base scenario of the model uses 1.3 as the annual conversion rate increase
     factor. This corresponds to a 30 percent per year increase in conversion,
     compounded each year.

7.   The model assumes 90 percent is the maximum conversion rate achievable

8.   The model assumes variable workhours are accomplished with a 50/50 mix of
     OT/PTF hours.

9.   The model uses $41.72, $35.69 and $22.70 as the fully loaded OT and PTF FY
     2007 hourly rates, respectively.


                                            12
Automated Deployment Strategy of                                                DR-AR-07-010
 Automated Postal Centers


10. The Postal Service labor cost escalation rate used is 2 percent per year.

11. In the "project discounted cash flow" tab, the capital investment amounts were
    obtained from the Postal Service’s Corporate Planning System report. The values
    for the "Operating variances other than labor savings" in that tab were derived from
    the Phase II DAR, escalated by 1.5 percent per year.

12. 9.75 percent was used as the discount rate, which is currently appropriate for a
    "medium risk" project.

13. The sensitivity tables demonstrate the effect of the conversion rate increase factor.
    These are for the purpose of demonstrating the rapidity of conversion under
    various scenarios.

14. The purpose of the sensitivity tables is to test the sensitivity of the model to a major
    assumption/input, the conversion rate increase factor, and a major constraint — the
    number of hours of APC eligible transactions.




                                             13
Automated Deployment Strategy of                                                               DR-AR-07-010
 Automated Postal Centers


                                                   APPENDIX C

                                      PRIOR AUDIT COVERAGE

                                                                                               Date
                                                                                               Final
                                     Report                                      Report       Report
                                     Name                                        Number       Issued

    Review of the Deployment Strategy of Automated Postal Centers –
    Central Florida District                                                   DR-AR-05-015   9/7/05

    Fiscal Year 2006 Financial Installation Audit – Automated Postal Centers   FF-AR-07-073   1/25/07




                                                              14
Automated Deployment Strategy of                      DR-AR-07-010
 Automated Postal Centers


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                   15
Automated Deployment Strategy of        DR-AR-07-010
 Automated Postal Centers




                                   16
